Office of Audits
Office of Inspector General
U.S. General Services Administration




Audit of Management Controls
Within the Network Services Division
Pacific Rim Region,
Federal Acquisition Service
Report Number A110100/Q/9/P12009
May 30, 2012
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                      REPORT ABSTRACT
                             Audit of Management Controls Within the Network Services Division
                             Pacific Rim Region, Federal Acquisition Service
                             Report Number A110100/Q/9/P12009
                             May 30, 2012
OBJECTIVE                    WHAT WE FOUND
                             We identified the following during our audit:
The objective of the audit
                             Finding 1 – NSD lacks inventory control procedures.
was to determine whether
management controls          Finding 2 – NSD lacks written procedures and management controls over
within the Federal           contract administration.
                             Finding 3 – NSD management needs to establish effective criteria for
Acquisition Service’s
                             evaluating staff performance.
(FAS) Network Services
                             WHAT WE RECOMMEND
Division’s (NSD) financial
and program operations in    The FAS Regional Commissioner in the Pacific Rim Region should:
the Pacific Rim Region       1. Conduct a comprehensive inventory of recurring services (B1) to identify
                                errors, missing transactions, and outdated or expired services.
are sufficient to ensure     2. Ensure accurate accounting of the recurring services inventory by developing
adherence to federal            and implementing written procedures and management controls for training
regulations and policy.         NSD employees on how to update and monitor the inventory.
If they are not, determine   3. Take action to ensure contracting officers’ technical representatives receive all
the impact and suggest          required acquisition training.
corrective action.           4. Clearly define roles, responsibilities, and expectations for the newly appointed
                                Branch Chiefs.
                             5. Develop and implement written procedures in the following areas:
                                a. Compliance with training mandates for contracting officers’ technical
                                  representatives.
                                b. Management oversight of independent contract employees.
                                c. Compliance with Fair Opportunity requirements under local services
                                  acquisition contracts for client requested telecommunication services.
                                d. Justification to award telecommunication services under tariff agreements.
                                e. Timely completion of customer orders in TOPS.
                             6. Re-evaluate and revise NSD’s Associate Performance Plans to accurately
                                reflect employees’ skill sets.
Pacific Rim Field            7. Develop and implement a methodology to measure customer satisfaction with
Audit Office (JA-9)             employee performance; this methodology should be included in the Associate
450 Golden Gate Avenue,         Performance Plans.
Room 7-5262                  MANAGEMENT COMMENTS
San Francisco, CA             The Regional Commissioner of the Pacific Rim Region concurred with the
94102                         audit report findings and recommendations.           Management’s written
(415) 522-2744                comments to the draft report are included in their entirety as Appendix B.


     A110100/Q/9/P12009                           i
                 Office of Audits
                 Office of Inspector General
                 U.S. General Services Administration

 DATE:           May 30, 2012



 TO:             Michael Gelber
                 Regional Commissioner
                 Federal Acquisition Service (9Q)



 FROM:           James P. Hayes
                 Regional Inspector General for Auditing
                 Pacific Rim Field Audit Office (JA-9)
 SUBJECT:        Audit of Management Controls within the
                 Network Services Division, Pacific Rim Region
                 Federal Acquisition Service
                 Report Number A110100/Q/9/P12009


This report presents the results of our audit of management controls within the Network
Services Division in the Pacific Rim Region. Our findings and recommendations are
summarized in the Report Abstract. Instructions regarding the audit resolution process
can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report. If
you have any questions regarding this report, please contact me or Perla Corpus at
(415) 522-2744 or by email:

  James P. Hayes     Regional Inspector General            jamesp.hayes@gsaig.gov
                     for Auditing
  Perla Corpus       Audit Manager                         perla.corpus@gsaig.gov

On behalf of the audit team, I would like to thank you and your staff for your patience
and assistance during this audit.




A110100/Q/9/P12009                     ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – NSD lacks inventory control procedures. ................................................. 2
                Recommendations 1 and 2....................................................................... 3


Finding 2 – NSD lacks written procedures and management controls over
           contract administration ............................................................................ 3

               Recommendations 3, 4, and 5................................................................... 8


Finding 3 – NSD management needs to establish effective criteria for evaluating
           staff performance. .................................................................................... 8
               Recommendations 6 and 7........................................................................ 9


Management Comments. ......................................................................................... 10


Other Observations. ................................................................................................. 11


Conclusion.............................................................................................................. 12

Appendix A – Purpose, Scope, and Methodology ............................................. A-1


Appendix B – Management Comments ............................................................. B-1


Appendix C – Report Distribution ...................................................................... C-1




A110100/Q/9/P12009                                        iii
Introduction
The Federal Acquisition Service’s (FAS) Network Services Division (NSD) assists
customer agencies on a broad range of telecommunication solutions/services. The goal
of the NSD is to obtain the lowest aggregate prices for these services through local
services acquisition contracts1 and other acquisition vehicles. The division consists of a
Director and a professional staff of 16 area telecommunication managers who are
responsible for making sound procurement decisions in fulfilling customer orders. The
NSD also uses contract employees to assist in initiating customer orders.

Area telecommunication managers are required to record and complete sales
transactions accurately and timely using FAS’s billing system, known as
Telecommunications Operating and Payment System or TOPS. 2 NSD’s sales are
primarily from monthly telecommunication services (also known as recurring services),
which are designated as B1 3 in TOPS. In addition, area telecommunication managers
are responsible for maintaining an accurate and reliable inventory of these recurring
services.

The objective of this audit was to determine whether management controls within the
NSD’s financial and program operations in the Pacific Rim Region are sufficient to
ensure adherence to federal regulations and policy. If they are not, determine the
impact and suggest corrective action.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
Local services acquisition contracts are used to procure regional telecommunication services.         The
majority of service lines were purchased via the California local services acquisition contract.
2
TOPS is managed by FAS’s Financial Service Center in Atlanta, Georgia.
3
 In fiscal year 2010, revenue generated from B1 services, i.e. monthly dial tone services, represented
$26.4 million or 92 percent of total sales. In addition, the region generates sales from telecommunication
equipment referred to as expanded/non-recurring services (B3) and toll call charges (B4).


A110100/Q/9/P12009                              1
Results
The lack of written procedures and/or weak management controls puts the integrity of
NSD operations at risk. As a result, NSD may not be providing best value
telecommunication services to its customer agencies. Three areas, in particular, require
strengthening: (1) Accounting for Inventory, (2) Contract Administration, and
(3) Evaluation of Employee Performance.

Findings

Finding 1 –NSD lacks inventory control procedures.

The lack of control procedures over the Region’s recurring services inventory impedes
NSD’s ability to effectively manage its operations. Although NSD maintains an
inventory of recurring services provided to customers, it cannot demonstrate that this
inventory is accurate or reliable. Nearly a third of the customer base is impacted by
errors in the inventory.

The current inventory, as reported in TOPS, includes 1,086 items representing
approximately 43,200 telephone lines. Within this inventory, we noted that: (1) a
number of line items are no longer in service; (2) the contract vehicle (local services
acquisition contract or tariff agreement 4) used to procure monthly services cannot be
readily identified; (3) some items may be non-recurring services; and (4) other recurring
service line items notated in the "Need Inventory Correction" and "No Inventory" tabs
could not be verified. Table I summarizes these deficiencies.

                  Table I – Summary of Deficiencies Regarding NSD’s
                              Recurring Services Inventory


                                                              Total Number      Total
                                                              of Telephone    Number of
                                                                  Lines         Items
                             Deficiency                         Impacted       Affected
                      Lines no longer in service                   9,224          244
                    Contract vehicle not identified                2,246          208
                       Non-recurring services                      1,282           4
             Recurring service items requiring verification        1,323          126
                                                     TOTAL        14,075          582




4
 A tariff agreement is an alternative to a local services acquisition contract in purchasing
telecommunication services. Depending on the service location, the Public Utility Company dictates the
rates charged to the customer agency. Generally, tariff agreement rates are significantly higher than
rates awarded under a local services acquisition contract.


A110100/Q/9/P12009                             2
The primary reason for these deficiencies is that NSD is not updating and validating
TOPS sales transactions. As a result, some customer agencies may be paying for
terminated telecommunication services while others may be paying higher prices under
tariff agreements for services that are available under the lower priced local services
acquisition contracts. (Table VI on page 7).

To correct these deficiencies, management needs to develop and implement written
policies and procedures to ensure NSD employees are properly trained regarding how
to update and validate TOPS and how to monitor the recurring services inventory. The
Regional Commissioner agreed with the recommendations and is in the process of
validating the recurring services inventory and developing written policies and
procedures.

Recommendations 1 and 2

We recommend the Regional Commissioner of the Federal Acquisition Service,
Pacific Rim Region:

1. Conduct a comprehensive inventory of recurring services (B1) to identify errors,
   missing transactions, and outdated or expired services.

2. Ensure accurate accounting of the recurring services inventory by developing and
   implementing written procedures and management controls for training NSD
   employees on how to update and monitor the inventory.

Finding 2 – NSD lacks written procedures and management controls over
            contract administration.

NSD needs to strengthen written procedures and management controls over contract
administration. This would include: (1) providing required training to NSD employees;
(2) improving personnel management; and (3) improving contract order processing.

Training

Customer agencies are not receiving the most effective and efficient services because
NSD’s designated contracting officers’ technical representatives have not met the
continuing education requirements mandated by the Office of Management and
Budget’s Office (OMB) of Federal Procurement Policy.

OMB requires contracting officers’ technical representatives to complete 40 hours of
continuing education every two years to maintain their certifications. However, none of
NSD’s four designated contracting officers’ technical representatives met this
requirement.

We addressed this issue with the NSD’s Acting Director and the Senior Acquisition
Policy Executive in May 2011 during the course of our audit. At that time, they indicated


A110100/Q/9/P12009                      3
that NSD was developing new procedures to ensure that it is meeting the minimum
training requirements. Nevertheless, because the training has not been received,
management should take action to ensure these procedures are put in place and fully
implemented.

Personnel Management

NSD did not clearly define the roles, responsibilities, and expectations for the newly
appointed supervisors. Prior to the appointments, two area telecommunication
managers (GS-13 grade level), designated as team leaders, were expected to oversee
the work of their colleagues even though they had no direct supervisory authority. As
such, they are limited to providing advice on best practices but cannot compel their
assign staff to follow through on that advice. To address this concern, NSD recently
filled two GS-14 supervisor positions (i.e., Branch Chiefs). However, to help ensure
efficient management, the NSD needs to clearly define the roles, responsibilities, and
expectations for these supervisors.

NSD lacks effective procedures for supervising independent contract employees. We
found little evidence of contract oversight despite the fact that independent contract
employees initiated 35 percent of the purchases made under local services acquisition
contracts during the 9-month period ended June 30, 2011. Therefore, we recommend
that management develop procedures to more effectively direct the work performed by
independent contract employees.

Contract Order Processing

NSD needs to develop written procedures detailing the steps involved with determining
whether telecommunication purchases should be made under tariff agreements or local
services acquisition contracts. In addition, area telecommunication managers were not
completing customer orders in TOPS in a timely manner, which may have an impact on
NSD’s financial position.

Tariff Agreements versus Local Services Acquisition Contracts

Of the 11 new customer orders placed during the 9-month period ended June 30, 2011,
10 were placed under the higher priced tariff agreements (Table II on page 5). NSD did
not provide an adequate explanation and/or supporting documentation justifying the use
of this contract vehicle and could not provide evidence showing that any of the orders
were eventually transitioned to a local services acquisition contract. As a result,
customer agencies are most likely paying more for telecommunication services than
they should.




A110100/Q/9/P12009                     4
                         Table II - Summary of Unsupported
                     Customers’ Orders under Tariff Agreements

           TOPS
          Control     Effective           Client               Reason for         Amount
          Number        Date             Agency*            Tariff Agreement      of Order

         93600323       2/1/11    Department of the Navy       Unsupported          $3,078

         96700314       5/1/11    Department of Labor         Unsupported            1,286
                                  Department of Justice,      Unsupported
         90500976      12/1/10    Probation Office             TOPS Error              456
                                                              Unsupported
         90002034      4/1/11     Bankruptcy Court             TOPS Error              442
         93600336      2/1/11     Department of Defense       Unsupported              411
         90002047      1/1/11     Bankruptcy Court            Unsupported              301
         90002050      1/1/11     Bankruptcy Court            Unsupported              271
         96200089      11/1/10    Department of Defense      No Issues Noted           151
                                  General Services
         90011119       6/1/11    Administration           No explanation given        112
                                  Small Business               Unsupported
         95009265       1/1/11    Administration               TOPS Error               44
         94700413       4/1/11    Homeland Security        No explanation given         18
       *With the exception of TOPS Control Number 96200089, all locations are in California.

We were unable to determine how management monitored the 1,200 customer orders
billed under tariff agreements as of June 30, 2011. In California, customer agencies in
federal buildings in metropolitan areas such as Los Angeles and San Francisco have
access to lower priced telecommunication services through awarded local services
acquisition contracts. Nevertheless, NSD used tariff agreements for 30 such customer
agencies in Los Angeles and 29 in San Francisco. Table III, on the next page, notes
several examples of this, one of which dates back to 1999.




A110100/Q/9/P12009                           5
                  Table III – Examples of Telecommunication Services
                            Billed Under California Tariff Agreements


                     TCAID       Effective
                      No.           Date       Federal Building          City
                      77         1/1/2003     Phillip Burton        San Francisco
                      95         10/1/2003    Phillip Burton        San Francisco
                      01         4/1/1999     Appraisers Building   San Francisco
                      83         8/1/2002     Appraisers Building   San Francisco
                                               th
                      02         4/1/2007     7 Street Building     San Francisco
                      38         10/1/2000    U.S. Courthouse       Los Angeles
                      04         10/1/2002    U.S. Courthouse       Los Angeles
                      49         8/1/2002     North Los Angeles     Los Angeles
                      48         8/1/2008     North Los Angeles     Los Angeles
                      97         3/1/2003     Edward Roybal         Los Angeles
                      02         1/1/2005     Edward Roybal         Los Angeles
                                               th
                      40         9/1/2008     6 Street Building     Los Angeles
                      27         10/1/2005    West Los Angeles      Los Angeles
                  TCAID – TOPS Contract Agreement Identification

NSD management indicated that many of these customers may have required
immediate telecommunication services, which are best provided using tariff agreements
because they require less time to award. However, NSD management is not aware if
area telecommunication managers later transitioned these customer agencies to the
less costly local services acquisition contracts, where available.

Fair Opportunity Clause

The Fair Opportunity Clause (Federal Acquisition Regulation 16.505b) requires
contracting officers to take into consideration all eligible vendors when awarding a local
services acquisition contract valued in excess of $3,000. While no purchases in our
sample met this criterion, we noted that NSD management does not have written
policies and procedures to ensure contracting officers understand and comply with this
regulation.

TOPS Orders

We noted incomplete TOPS orders affecting not only NSD’s financial position but
customer billings as well. NSD’s budget may be impacted as a result of customers’
under billings due to incomplete TOPS orders. Customer agencies are not billed for
services until area telecommunication managers enter complete transactions in TOPS.
However, NSD is still responsible for paying vendors for these orders. As a result, NSD
operates in a deficit position 5 pending reimbursement from the customer agency, which
could take several months.

5
 In addition to unreimbursed costs for services, NSD assesses customers a 35 percent surcharge on
orders to recover its administrative and overhead costs. Failure to complete customer orders in TOPS
may have an adverse effect on NSD’s financial position.


A110100/Q/9/P12009                             6
Our comparison of vendors’ invoices to the TOPS database disclosed a number of
incomplete TOPS orders. Table IV provides a summary of incomplete TOPS orders as
of June 2011.

                     Table IV– Summary of Incomplete TOPS Orders


                             TOPS                         Total Number of    Total Number
         Reconciliation    System ID          Total      Telephone Lines     of Incomplete
           Number           Number           Orders          Impacted        TOPS orders
                                  6
              1               99B            1,315              127                384
              2               99B            1,967               62                319
              3               940            1,173              190                353

Incomplete TOPS orders also impact the accuracy of the financial data generated by
the Regional budget office that relies on accurate information for economic forecasting
and monitoring of the division’s operating revenues and expenses.

In reconciling TOPS system ID number 99B, we noted significant discrepancies on the
quantity of services ordered between the vendors’ invoices and TOPS billing information
(Table III). In addition, customer agencies were billed for services no longer provided
(Table VI).

                       Table V – Summary of Quantity Differences

                               TOPS                         Total Number     Total Number
          Reconciliation     System ID         Total        of Telephone      of Quantity
            Number            Number          Orders       Lines Impacted     Differences
               1                99B           1,315               91              305
               2                99B           1,967               58              104

                          Table VI – Summary of Terminated Orders


                                       TOPS                        Total Number
                   Reconciliation    System ID          Total      of Terminated
                     Number           Number           Orders          Orders
                        1               99B            1,315             30
                        2               99B            1,967            110
                        3               940            1,173             11

Order discrepancies in TOPS can result in over or under billings and if services are
terminated, customers may pay for services they no longer receive.




6
 Due to the significant number of telephone lines assigned to TOPS system 99B, NSD divided the system
into two parts for reconciliation purposes.


A110100/Q/9/P12009                           7
Recommendations 3, 4, and 5

We recommend the Regional Commissioner of the Federal Acquisition Service,
Pacific Rim Region:

3. Take action to ensure contracting officers’ technical representatives receive all
   required acquisition training.

4. Clearly define roles, responsibilities, and management’s expectations for the newly
   appointed Branch Chiefs.

5. Develop and implement written procedures in the following areas:

      a. Compliance with training mandate for contracting officers’ technical
         representatives.

      b. Management oversight of independent contract employees.

      c. Compliance with Fair Opportunity requirements under local services
         acquisition contracts for client requested telecommunication services.

      d. Justification to award telecommunication services under tariff agreements.

      e. Timely completion of customer orders in TOPS.


Finding 3 – NSD management needs to establish effective criteria for evaluating
            staff performance.

NSD provides no differentiation in performance criteria among grade levels and job
series within the NSD’s professional staff. This practice does not comply with the
General Services Administration’s (GSA) personnel policy. While NSD employees are
generally categorized as area telecommunication managers, we noted these employees
were classified in the following GS-series and corresponding job titles:

                        Table V – NSD Job Series and Titles

          GS-Series                              Job Title
                        Technology Project Executive, Project Integrator, or
             301        Technology Project Advisor
             391        Telecommunication Specialist or Telecommunication Manager
             1101       Team Lead
             2210       Information Technology Specialist

No distinction or differentiation exists between grade levels for NSD employees with
regard to evaluation criteria. The four series are evaluated using identical percentages
for five critical elements: Project Management (30 percent), Client Satisfaction


A110100/Q/9/P12009                     8
(30 percent), Team Work (20 percent), Oral Communication (10 percent), and Written
Communication (10 percent). NSD is not complying with GSA policy for the Associate's
Performance Plan and Appraisal Record that requires different evaluation criteria based
on grade level and job series. We also noted the Associate Performance Planning
Worksheet (Associate Worksheet) for all GS series had identical performance
descriptions for each of the five critical elements. 7 Further, no methodology exists to
measure employee performance concerning client satisfaction, which represents
30 percent of an employee’s performance. The NSD could measure client satisfaction
using customer surveys or customer response/complaint logs.

We compared the Position Descriptions and Associate Worksheets for the four general
service job series and noted they share common elements. However, the Position
Descriptions list several metrics that are not included in the Associate Worksheets.
Further, when a metric on the Position Description is comparable to the Associate
Worksheet, the Associate Worksheet generally does not list the same level of detail
included in the Position Description. Of the 90 measures reviewed across our sample
of position descriptions, we noted 63 instances (70 percent) where the Position
Description either did not match, or only partially matched, the Associate Worksheet.

Currently, NSD management officials are evaluating employee skills based on
inaccurate performance criteria. We recommend that management re-evaluate and
revise the division’s Associate Performance Plans to accurately reflect employees’ skill
sets. In addition, NSD management must develop and implement a methodology to
measure employee performance related to customer satisfaction.

The NSD Director informed us that he is currently evaluating the NSD job titles, Position
Descriptions, and Associate Worksheets and is considering changes to the Associate
Worksheets and the weights of the critical elements.

Recommendations 6 and 7

We recommend the Regional Commissioner of the Federal Acquisition Service,
Pacific Rim Region:

6. Re-evaluate and revise NSD’s Associate Performance Plans to accurately reflect
   employees’ skill sets.

7. Develop and implement a methodology to measure customer satisfaction with
   employee performance; this methodology should be included in the Associate
   Performance Plans.




7
 The narratives for the project management and teamwork elements of the team lead series (GS-1101)
differed from those of the other GS-series.


A110100/Q/9/P12009                           9
Management Comments

The Regional Commissioner of the Pacific Rim Region concurred with the audit report
findings and recommendations. Management’s written comments to the draft report are
included in their entirety as Appendix B.




A110100/Q/9/P12009                   10
Other Observations

NSD must provide timely and accurate data regarding the use of local services
acquisition contracts to the regional Acquisition Operations Division, which awards local
services acquisition contracts. The NSD also needs to provide better assistance to the
Acquisition Operations Division during the re-competition of local services acquisition
contracts.

        o The NSD should determine contract requirements early in the contract vetting
          process. It must perform sufficient research to identify telecommunication
          vendors that will provide best value for customer agencies. For example, NSD
          should focus on the source selection plan prior to re-competing an expiring
          local services acquisition contract. The plan is a key document that specifies
          how the source selection activities will be organized, initiated, and conducted.
          It serves as the guide for conducting the evaluation and analysis of proposals,
          and the selection of source(s) for the acquisition. In order to be successfully
          executed, the source selection plan must clearly and succinctly express the
          Government’s minimum needs or evaluation factors and their relative order of
          importance.

        o NSD staff must provide requested documents in a timely manner. The
          Acquisition Operations Division relies on documents such as historical data
          and the current Statement of Work in the contract award process. Delays in
          obtaining crucial documents may subject customer agencies to higher tariff
          rates. 8




8
 Upon expiration of a local services acquisition contract, the NSD and Acquisition Operations Division are
responsible for ensuring that customer agencies transition to either a bridge contract or, if awarded, the
new local services acquisition contract. The bridge contract uses the same telecommunication rates
under the expired contract until the eventual award of the new local services acquisition contract.
Customer agencies avoid the higher priced rates under tariff agreements.


A110100/Q/9/P12009                             11
Conclusion

Current management controls covering NSD operations (program, financial, and
compliance) need strengthening. Having effective controls in place is a major part of
managing an organization. These controls also serve as a first line of defense in
safeguarding assets and preventing and detecting errors and fraud. Without effective
management controls, NSD managers will have difficulty in achieving the division’s
goals with minimal operational problems.




A110100/Q/9/P12009                    12
Appendix A – Purpose, Scope, and Methodology
Purpose

The audit of the Federal Acquisition Service’s (FAS) Network Services Division (NSD) in
the Pacific Rim Region was included in the Office of Inspector General’s Fiscal Year
2011 annual audit plan.

Scope

Our audit generally focused on telecommunication transactions that occurred during the
9-month period ended June 30, 2011.

Methodology

To accomplish our objectives, we:

   •   Interviewed NSD personnel including the Acting Director and several area
       telecommunications managers;
   •   Interviewed FAS regional personnel involved in NSD financial and program
       operations including the Regional Commissioner, Deputy Regional
       Commissioner, Business Manager, Director of Acquisition Operations Division,
       and Financial Service Center;
   •   Ascertained the reliability of B1 inventory for the region as of June 10, 2011, and
       reasons for inaccuracies;
   •   Determined number of discrepancies between vendors’ invoices and TOPS
       inventory report;
   •   Analyzed NSD’s Budgetary Information and Performance Goals;
   •   Assessed the qualifications of NSD staff designated as warranted contracting
       officers and/or contracting officer technical representatives and obtained reasons
       from NSD management for non-compliance with applicable training policy and
       regulations (General Services Administration’s Acquisition Manual and the Office
       of Management and Budget training policies);
   •   Audited new customer orders administered by three area telecommunication
       managers, under local services acquisition contracts to determine compliance
       with Fair Opportunity Clause (Federal Acquisition Regulation 16.505b);
   •   Audited all 11 telecommunication orders placed under Tariff Agreements to
       determine whether orders were awarded unnecessarily;
   •   Ascertained the reliability of the region’s Private Branch Exchange inventory as
       of September 2011 and reasons for inaccuracies;
   •   Evaluated position descriptions for each NSD labor category;
   •   Interviewed Subject Matter Expert in Central Office regarding differentiation
       among grade levels and job series;
   •   Requested telecommunication orders designated B1 placed under local services
       acquisition contracts and Tariff Agreements from the TOPS Help Desk; and


A110100/Q/9/P12009                     A-1
Appendix A – Purpose, Scope, and Methodology (continued)
   •   Determined that equipment purchases (designated B3) were in accordance with
       regional policy and Project Manager Guidelines.

We conducted the audit between January 20, 2011, and October 31, 2011, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

Internal Controls

This audit evaluated management controls and procedures over NSD’s inventory,
personnel, and contract orders. The Results section and the corresponding seven
recommendations of this report state in detail the need to strengthen specific processes
and controls within the NSD.




A110100/Q/9/P12009                    A-2
Appendix B – Management Comments




A110100/Q/9/P12009    B-1
Appendix C – Report Distribution
Regional Administrator (9A)

Regional Commissioner, Federal Acquisition Service (9Q)

Deputy Regional Commissioner, Federal Acquisition Service (9Q)

Network Service Director, Federal Acquisition Service (9Q)

Senior Acquisition Policy Executive (9Q)

Division Director, GAO/IG Audit Response Division (H1C)

Inspector General (J)

Deputy Inspector General (JD)

Counsel to the Inspector General (JC)

Staff Assistant to the Deputy Inspector General

Director of Communications and Congressional Affairs (J)

Special Assistant for Communications (J)

Assistant Inspector General for Auditing (JA)

Staff Assistant (JA)

Principal Deputy Assistant Inspector General for Auditing (JAD)

Deputy Assistant Inspector General for Investigations (JID)

Deputy Assistant Inspector General for Acquisition Audits (JA-A)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A110100/Q/9/P12009                      C-1
